                        U.S. Department of Agriculture

                           Office of Inspector General
                                      Northeast Region




              Audit Report

      Agricultural Research Service
Accountability Over the Former Soviet Union
     Scientific Cooperation Program




 .




                                Report No. 02001-2-Hy
                                         August 2006
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


August 1, 2006

REPLY TO
ATTN OF:       02001-02-Hy

TO:            Edward B. Knipling
               Administrator
               Agricultural Research Service

THROUGH: Steven Helmrich
         Director
         Financial Management Division

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Accountability Over the Former Soviet Union Scientific Cooperation Program


This report presents the results of our audit of the Agricultural Research Service’s Accountability
over the Former Soviet Union Scientific Cooperation Program. Your June 28, 2006, response to
the official draft report is included as exhibit A. Excerpts from your response and the Office of
Inspector General’s position are incorporated into the Findings and Recommendations section of
the report. Based on your response, we have reached management decision on all of the report’s
recommendations.         Please follow your agency’s internal procedures in forwarding
documentation for final action for the recommendations to the Office of the Chief Financial
Officer.

We appreciate the courtesies and cooperation extended to us during this review.
Executive Summary
Agricultural Research Service Accountability Over the Former Soviet Union Scientific
Cooperation Program (Audit Report No. 02001-02-Hy)

Results in Brief                    This report presents the results of the Office of Inspector General’s (OIG)
                                    audit of the Agricultural Research Service’s (ARS) accountability over the
                                    Former Soviet Union (FSU) Scientific Cooperation Program. Pursuant to
                                    section 509 of the Fiscal Year (FY) 2004 Appropriations Act (Public Law
                                    108-199), OIG for the U.S. Department of Agriculture (USDA) shall perform
                                    periodic program and financial audits of funds transferred under the
                                    Memorandum of Agreement with the Department of State (DOS).

                                    The FSU Scientific Cooperation Program was designed to reduce the risk of
                                    proliferation of weapons of mass destruction expertise, increase transparency
                                    at former Soviet biological weapons research sites, and support the transition
                                    of former Soviet weapons scientists in Russia, Kazakhstan, Uzbekistan,
                                    Tajikistan, and Ukraine to civilian activities by redirecting their
                                    biotechnology expertise into peaceful agricultural research. As of
                                    April 1, 2005, there were 46 funded research projects that received
                                    $18.176 million.

                                    ARS has the responsibility for providing programmatic and financial
                                    accountability over the FSU Scientific Cooperation Program. To promote
                                    transparency, ensure the redirection of former weapons scientists and
                                    engineers toward peaceful research, and validate that project goals are being
                                    met, ARS is required to conduct annual site visits to the FSU institutes. In
                                    addition, ARS is required 1 to obtain, review, and provide feedback on
                                    quarterly and annual technical reports submitted by the FSU collaborators. 2
                                    ARS also maintains ongoing collaboration with the International Science and
                                    Technology Center (ISTC) in Moscow and the Science and Technology
                                    Center in Ukraine located in Kiev, which are responsible for providing
                                    management oversight of the research activities and project expenditures at
                                    the FSU institutes.

                                    We determined that ARS did not provide adequate accountability over
                                    program funds and that improved oversight of the research projects in the
                                    FSU Scientific Cooperation Program is needed.

                                    •     ARS did not ensure that site visits were conducted annually for the
                                          11 projects we selected for review. This occurred because ARS did not
                                          enforce procedures requiring ARS collaborators 3 to conduct annual site
                                          visits. For example, ARS had not implemented adequate follow-up
1
    ARS FSU Scientific Cooperation Program Guidelines for ARS collaborators, issued FY 2002 and updated FY 2005.
2
    FSU participants working on the project, including the project manager, scientists, etc.
3
    ARS scientists assigned to the FSU project.

USDA/OIG-AUDIT No. 02001-2-Hy                                                                                      Page i
                       actions for collaborators who did not timely conduct site visits to ensure
                       that they were completed. Also, ARS accepted alternative types of visits
                       to fulfill its annual site visit requirement without gaining assurance of the
                       specific tasks that were completed.

                   •   ARS did not ensure that ISTC performed on-site monitoring reviews
                       annually for our 11 selected projects, as recommended. This occurred
                       because ARS lacked procedures specifying the frequency of the on-site
                       monitoring reviews.

                   •   ARS program officials did not ensure that all required quarterly technical
                       reports were submitted by the FSU collaborators. ARS did not have
                       documentation to ascertain whether 30 of the 141 quarterly reports had
                       been received. Also, there was no evidence showing that the ARS
                       collaborators reviewed and provided feedback for 71 of the quarterly
                       reports on file.

                   •   ARS had not fully developed and implemented management controls for
                       ensuring the accountability of funds transferred from DOS. The use of
                       over 70 percent ($72,231 of $98,548) of the funds transferred to the ARS
                       collaborators in FY 2004 could not be validated. ARS’ area office
                       personnel were not required to track the program’s funds separately from
                       that of other non-FSU research funds. Therefore, program funds could
                       have been used for unallowable expenditures and remained undetected.
                       Additionally, the science centers had personnel expenditures totaling
                       $39,438 (out of the $6.235 million allotted to the 11 projects we
                       reviewed) that were not listed in the projects’ workplan. This occurred
                       because ARS program officials did not obtain and review required
                       financial documentation and ARS did not require the science centers to
                       provide notifications of deviations in the workplan.

                   These management control weaknesses increased the risk of payments being
                   made for personnel not identified in the project workplan; personnel
                   misclassified as former weapons scientists; and personnel who have not
                   actively worked on the project. There is also an increased risk that former
                   weapons scientists being compensated under this program could engage in
                   inappropriate activities and ARS would not timely detect that program goals
                   were not being met.

                   We discussed these concerns with ARS program officials who agreed that
                   controls for administering the FSU Scientific Cooperation Program should be
                   strengthened.




USDA/OIG-AUDIT No. 02001-2-Hy                                                               Page ii
Recommendations
In Brief
                   ARS needs to develop and implement a plan to ensure that its collaborators
                   conduct site visits to the FSU institutes on an annual basis and the science
                   centers consistently conduct on-site monitoring of the FSU projects. Also,
                   ARS needs to improve its tracking system to ensure that all quarterly
                   technical reports have been submitted and that the ARS collaborators have
                   reviewed the reports and provided timely and adequate feedback. ARS
                   should also establish a process for tracking FSU project funds to ensure that
                   program funds are used appropriately, and for obtaining and reviewing
                   pertinent financial records to ensure that costs incurred are allowable under
                   the terms of the project agreement.

Agency Response
                   ARS responded to the draft audit report on June 28, 2006, (see exhibit A) and
                   agreed in principle with the findings and recommendations. ARS did
                   propose an alternative to Recommendation 1 which required that it develop
                   and implement procedures to ensure that ARS collaborators conduct site
                   visits on an annual basis. We have incorporated excerpts from ARS’ response
                   to our recommendations in the Findings and Recommendations section of
                   this report along with OIG’s position.

OIG Position
                  OIG concurs with ARS’ response. We have accepted management decision on
                  all eight recommendations.




USDA/OIG-AUDIT No. 02001-2-Hy                                                           Page iii
Abbreviations Used in This Report


ARS                 Agricultural Research Service
BW                  Biological Weapons
DCAA                Defense Contract Audit Agency
DOS                 Department of State
FSU                 Former Soviet Union
FY                  Fiscal Year
ISTC                International Science and Technology Center
NPS                 National Program Staff
OIG                 Office of Inspector General
OIRP                Office of International Research Programs
MOA                 Memoranda of Agreement
STCU                Science and Technology Center in Ukraine
USDA                U.S. Department of Agriculture
WMD                 Weapons of Mass Destruction




USDA/OIG-AUDIT No. 02001-2-Hy                                     Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1. Oversight of Research Projects Needs to be Strengthened.......................................... 6

        Finding 1             ARS Site Visits and Science Center On-site Monitoring Reviews Not
                              Always Performed................................................................................................... 6
                                 Recommendation 1 ........................................................................................ 10
                                 Recommendation 2 ........................................................................................ 10
        Finding 2             ARS’ Tracking of Technical Reports Needs to be Strengthened.......................... 11
                                 Recommendation 3 ........................................................................................ 13

    Section 2. Inadequate Accountability Over Program Funds ....................................................... 15

        Finding 3             ARS Needs to Establish Management Controls to Ensure Oversight of
                              Program Funds ...................................................................................................... 15
                                  Recommendation 4 ........................................................................................ 18
                                  Recommendation 5 ........................................................................................ 19
                                  Recommendation 6 ........................................................................................ 19
                                  Recommendation 7 ........................................................................................ 20
                                  Recommendation 8 ........................................................................................ 20

Scope and Methodology........................................................................................................................ 22

Exhibit A – Agency Response .............................................................................................................. 24




USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                              Page v
Background and Objectives
Background         In 1953, the Secretary of Agriculture established the Agricultural Research
                   Service (ARS) for the purpose of conducting the wide variety of research in
                   agriculture and related sciences that is authorized in the Department of
                   Agriculture Organic Act of 1862. ARS is the principal in-house physical and
                   biological science research agency in the U.S. Department of Agriculture
                   (USDA). ARS conducts research to develop and transfer solutions to
                   agricultural problems of high national priority and provide informational
                   access and dissemination to:

                   •   Ensure high-quality, safe food;
                   •   Assess the agricultural nutritional needs of Americans;
                   •   Sustain a competitive agricultural economy;
                   •   Enhance the natural resource base and the environment; and
                   •   Provide economic opportunities for rural citizens, communities, and
                       society.

                   ARS operates about 1,200 research projects within 22 National Programs at
                   over 100 locations across the country and overseas. ARS’ workforce of
                   8,000 employees includes about 2,000 scientists representing a wide range of
                   disciplines.

                   The ARS Office of International Research Programs (OIRP) enhances the
                   productivity, effectiveness, and impact of national programs through
                   mutually beneficial international research activities. International research is
                   conducted to facilitate international cooperation and exchange and to promote
                   the strategic interests of the U.S. Government.

                   In 1998, at the request of the Departments of State (DOS) and Defense, ARS
                   initiated the Former Soviet Union (FSU) Scientific Cooperation Program to
                   engage FSU scientists in peaceful agricultural research. The program was
                   designed to reduce the risk of proliferation of weapons of mass destruction
                   (WMD) expertise, increase transparency at former Soviet biological weapons
                   (BW) research sites, and support the transition of former Soviet weapons
                   scientists in Russia, Kazakhstan, and Uzbekistan to civilian activities by
                   redirecting their biotechnology expertise to agricultural research.

                   The FSU Scientific Cooperation Program’s overall objectives are to:

                   •   reduce the threat of BW development and usage in the world;
                   •   advance agricultural science by establishing new expertise in FSU
                       countries;


USDA/OIG-AUDIT No. 02001-2-Hy                                                               Page 1
                                     •     enhance the effectiveness and productivity of ARS research programs;
                                           and
                                     •     improve the economy of FSU countries through advances in agricultural
                                           technology.

                                     As of April 2005, there were a total of 46 funded research projects employing
                                     approximately 900 FSU scientists, half of whom were former BW scientists.
                                     The FSU projects cover diverse program areas such as plant and livestock
                                     health, including avian influenza, exotic Newcastle disease, and
                                     foot-and-mouth disease. Food safety and crop variety improvement are other
                                     areas of strong interest.

                                     Each project funded under the ARS program goes through a technical, policy,
                                     and national security review. ARS and FSU scientists first submit a
                                     pre-proposal to OIRP. ARS’ National Program Staff (NPS) reviews the pre-
                                     proposal for technical merit and compliance to the ARS mission. Also, OIRP
                                     staff review the pre-proposal to confirm that the FSU institutes involved
                                     qualify for funding. Based on the NPS and OIRP reviews, a proposal may be
                                     approved for development. If approved for development, the FSU
                                     collaborators are invited to the ARS location to develop a full proposal.

                                     Once the full proposal is developed, OIRP reviews the proposal including
                                     personnel lists and budget, for accuracy and for scientific clarity. After the
                                     proposal is finalized, OIRP submits it to DOS for a national security review.
                                     OIRP participates in a monthly DOS-led interagency meeting in which the
                                     review results are discussed. Any proposals receiving a high risk rating are
                                     not funded. Those proposals receiving a moderate or moderate to high
                                     assessment undergo a secondary review. The interagency group 4 votes to
                                     decide whether to fund the proposal. Once proposals are officially registered
                                     at one of the science centers, they are submitted for a second policy review
                                     that includes additional DOS offices. Lastly, OIRP, along with input from the
                                     ARS collaborators, approves the final draft of the project agreement before
                                     signature, which includes the official starting work plan.

                                     DOS

                                     ARS’ FSU Scientific Cooperation Program was funded through DOS. The
                                     program funds are transferred from DOS to ARS under the authority of the
                                     Foreign Assistance Act of 1961. Obligation and expenditure of these funds is
                                     subject to the terms and conditions outlined in the funds transfer agreement
                                     between DOS and USDA. From fiscal year (FY) 1998 through 2005, total
                                     funding reached $37.99 million.



4
    The interagency group is led by DOS and consists of individuals from various government agencies including ARS, Environmental Protection Agency,
    Department of Health and Human Services, Department of Defense, Department of Energy, and Department of Homeland Security.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                              Page 2
                                                                               Fund Transfers
                                                              FY                 from DOS
                                                             1998             $550 thousand
                                                             1999             $2 million
                                                             2000             $6.98 million
                                                             2001             $6 million
                                                             2002             $5 million
                                                             2003             $6 million
                                                             2004             $5.46 million
                                                             2005             $6 million
                                                            TOTAL             $37.99 million


                                        Of the $37.99 million, $18.18 million was transferred to the science centers
                                        for the 46 funded projects (as of April 1, 2005). The remaining
                                        $19.81 million was allocated for approved projects that were still under
                                        development, salaries for International Science and Technology Center
                                        (ISTC) and OIRP personnel, travel expenses, Defense Contract Audit Agency
                                        (DCAA) audits, supplies, interpreters, copyright fees, and other program
                                        related costs.

                                        ARS

                                        ARS’ OIRP is responsible for providing financial and programmatic
                                        accountability over the FSU Scientific Cooperation Program. OIRP
                                        responsibilities include allocating funds to the ARS collaborators, facilitating
                                        travel to FSU, and maintaining ongoing coordination with the science
                                        centers. On a quarterly basis, OIRP is responsible for reporting program
                                        activities to DOS regarding travel, research progress, publications, and
                                        patents.

                                        ARS collaborators 5 are responsible for performing annual site visits to the
                                        FSU institutes to evaluate the progress being made on the project and to
                                        promote transparency. Also, the collaborators are responsible for reviewing
                                        the quarterly and annual technical reports submitted by the FSU
                                        collaborators 6 to ensure research tasks outlined in the project workplan have
                                        been completed. In addition, ARS collaborators are to maintain ongoing
                                        communications with the FSU collaborators to stay abreast of the project
                                        activities, offer guidance on research problems, and provide any needed
                                        training.




5
    ARS scientists assigned to the FSU project.
6
    FSU participants working on the project, including the project manager, scientists, etc.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                    Page 3
                                      Science Centers

                                      ARS administers its program primarily through collaboration with two
                                      multilateral intergovernmental organizations—the ISTC in Moscow and the
                                      Science and Technology Center in Ukraine (STCU). 7 ISTC supports
                                      activities in Russia, Kazakhstan, and Tajikistan and STCU supports activities
                                      in Uzbekistan and Ukraine. ARS established a separate Memorandum of
                                      Agreement (MOA) with each of the science centers. Each agreement outlines
                                      the implementation, terms and conditions, duration, and the funding,
                                      monitoring, and reporting requirements for the research projects. Also,
                                      individual project agreements have also been established between ARS, the
                                      science centers, and the FSU institutes. The agreements include workplans,
                                      which detail the specific responsibilities of each party that are to be carried
                                      out during the project.

                                      ARS transfers funds to the science centers to support the project expenses.
                                      The science centers provide laboratory equipment, reagents, 8 and other
                                      research supplies to the FSU institutes to implement the research activities.
                                      Also, on a quarterly basis, the science centers transfer grant funds directly to
                                      the FSU collaborators as payment for work performed. The science centers
                                      are required to provide quarterly financial reports to ARS itemizing project
                                      expenditures. Overall, the science centers are responsible for monitoring the
                                      research projects at the FSU institutes and providing financial oversight of
                                      project expenditures. Specifically, the science centers are responsible for
                                      reviewing the quarterly technical and financial reports submitted by the FSU
                                      collaborators and conducting on-site monitoring reviews and audits. In
                                      general, they oversee all aspects of the projects, from initiation to completion,
                                      and maintain ongoing communication with OIRP.

                                      DCAA

                                      In prior years, ARS relied on the oversight provided by the science centers,
                                      and the ARS collaborators’ review of the FSU technical reports and site
                                      visits. However, beginning in FY 2004, ARS contracted with DCAA to audit
                                      its projects. At the start of our review, DCAA had completed audits for 7 of
                                      the 46 funded projects. The audits were performed primarily on those
                                      projects whose completion date had been extended and had received
                                      additional funding (four of the seven audits). The audits examined the
                                      effectiveness of the internal controls in place over the accounting,
                                      timekeeping, and equipment purchased for the projects. These audits, in
                                      conjunction with the science center’s financial reviews, are ARS’ primary
                                      means of independently assessing whether program funds are being used
                                      effectively to achieve the goals of the program and individual research

7
    The science centers were established in 1992. They were created after the widespread concern among governments of several nations about the fate of
    newly unemployed scientists and engineers who once had been engaged in Soviet programs to develop WMD.
8
    Substances used in a chemical reaction to detect, measure, examine, or produce other substances.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                                Page 4
                                   projects. Furthermore, they evaluate management’s monitoring of project
                                   resources and compliance with applicable laws, regulations, and the project
                                   agreement.

Objectives                         Our audit 9 evaluated ARS’ oversight of the FSU Scientific Cooperation
                                   Program. In particular, we assessed ARS’: (1) accountability for transferred
                                   DOS funds, (2) management controls over research projects, and
                                   (3) coordination with FSU scientists.

                                   To accomplish these objectives, we judgmentally selected a sample of
                                   11 research projects that were funded between April 1, 2000,
                                   and April 1, 2005. Our work focused on ARS policies, procedures, and
                                   activities related to the FSU Scientific Cooperation Program from
                                   FY 2000 through FY 2005. (See the Scope and Methodology section of this
                                   report for further details.)




9
  Pursuant to Section 509 of the FY 2004 Appropriations Act (Public Law 108-199), USDA OIG is required to perform   periodic program and financial
audits of funds transferred under the MOA with DOS.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                           Page 5
Findings and Recommendations
Section 1. Oversight of Research Projects Needs to be Strengthened

                        ARS is responsible for overseeing the FSU Scientific Cooperation Program.
                        ARS accomplishes this through annual site visits to the FSU institutes and
                        quarterly reviews of the technical reports. ARS also requires the science
                        centers to perform on-site monitoring reviews. Project monitoring is
                        essential for providing oversight of the research projects. The ARS
                        component of the program is primarily directed by the Program Manager,
                        along with two support personnel. Their responsibilities include reviewing
                        project proposals, maintaining ongoing coordination, providing guidance to
                        the science centers and ARS/FSU collaborators, reporting program activities
                        to DOS through weekly meetings and the submission of quarterly reports,
                        preparing short and long-term program plans, and identifying opportunities
                        for future collaboration. They also approve budget changes to the projects,
                        facilitate the travel of the ARS/FSU collaborators, and are responsible for the
                        management of all other program related activities.

                        We found that ARS’ site visits were not conducted annually and ARS
                        program officials did not ensure that quarterly technical reports were received
                        and adequate feedback was provided by the ARS collaborators. In addition,
                        we found that the science centers did not perform annual on-site monitoring
                        reviews. Despite these lapses, ARS continued to provide funding to the ARS
                        collaborators and science centers to support these projects.

                        In August 2005, we met with the ARS FSU Program Manager to discuss the
                        adequacy of the oversight of the research projects. She agreed that ARS
                        needed to continue to improve its oversight of the projects.


Finding 1               ARS Site Visits and Science Center On-site Monitoring Reviews
                        Not Always Performed

                   ARS did not establish adequate management controls to ensure that site visits
                   and on-site monitoring reviews were conducted annually. For several of our
                   selected projects, we found that more than a year had passed between ARS
                   site visits. Similarly, ISTC’s on-site monitoring reviews for some selected
                   projects occurred more than 1 year apart. This was because ARS did not
                   enforce its policy requiring ARS collaborators to conduct annual site visits.
                   Also, ARS lacked procedures specifying the required frequency of the
                   science center’s on-site monitoring reviews. Due to inadequate oversight,
                   there is an increased risk that former weapons scientists could be
                   misclassified, scientists could engage in inappropriate activities, and project
                   goals are not being met in accordance with the project agreement.
USDA/OIG-AUDIT No. 02001-2-Hy                                                              Page 6
                                      ARS Collaborator Site Visits Not Always Performed

                                      According to the ARS guidelines, 10 the ARS collaborator is required to visit
                                      the FSU collaborators’ institute at least once per year. To determine whether
                                      project reviews were being performed timely, we reviewed ARS’ database
                                      and documentation, including trip reports, annual technical reports, and
                                      OIRP’s summary spreadsheet. We determined that annual ARS site visits
                                      were not performed for 5 of our 11 selected projects. As shown in the
                                      following table, the ARS collaborator did not perform any site visits for four
                                      projects and only conducted two site visits for one project, since the projects
                                      began.

                                                   Project        Funding                   ARS Collaborator
                                                   Number           Date                       Site Visits
                                                                  February
                                                     P-119         2003                              none
                                                                 November
                                                     K-516         2000                              none
                                                                 November
                                                     K-525         2000               June 2002, September 2003
                                                     2089        July 2001                       none
                                                                 September
                                                     2538          2002                              none


                                      ARS officials stated that the collaborators were informed of the requirement
                                      to conduct annual site visits when they agreed to participate and they were
                                      provided periodic reminders of this requirement. According to ARS program
                                      officials, none of the ARS collaborators refused to travel to the FSU
                                      institutes. Nonetheless, they had not conducted annual site visits. We
                                      determined that ARS had not established proactive measures for ensuring that
                                      the collaborators conduct these visits annually. Without enforcing the
                                      requirement, there was no sense of urgency amongst the ARS collaborators to
                                      travel.

                                      Also, ARS officials stated that for each of these projects, the original ARS
                                      collaborator had retired or left the agency, and thus a new collaborator was
                                      assigned. Although this may have had an impact on the timeliness of the site
                                      visits during the transitional year, there were other lengthy periods when site
                                      visits were not performed.

                                      For each of these projects, ARS teams, consisting of scientists and OIRP
                                      officials, traveled to the FSU institutes. We learned that the team visits were
                                      primarily conducted to evaluate the facilities and identify new areas of
                                      collaboration. Although the team met with the principal FSU collaborators
                                      for some of its ongoing projects, the focus was more on administrative issues
10
     ARS FSU Scientific Cooperation Program Guidelines for ARS collaborators, issued FY 2002 and updated FY 2005. (Although formal written
     guidelines were not issued until FY 2002, the annual site visit requirement had been communicated to the ARS collaborators beginning in FY 2000.)
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                               Page 7
                   (i.e., ensuring that the FSU scientists were getting paid timely and were
                   receiving adequate support from the science centers) rather than assessing
                   scientific progress. If team visits are used to fulfill the annual site visit
                   requirement, ARS should ensure that the review is performed in consultation
                   with the ARS collaborator assigned to the project. Also, other U.S.
                   Government agencies (such as the Department of Defense) visited the
                   institutes. Although these visits meet the objective of promoting
                   transparency, ARS program officials admitted that they should not be
                   considered as a substitute for annual site visits by the ARS collaborators,
                   except for those instances when the project’s collaborator was a member of
                   the team and could assess the project.

                   Science Center On-site Monitoring Not Always Performed

                   In addition to the site visits to be performed by ARS collaborators, the
                   science centers were required to provide oversight of the projects through
                   their own on-site monitoring efforts. ARS failed to obtain a monitoring
                   schedule for the reviews the science centers were to perform, and as a result
                   ARS was unaware when they were not performed timely. ARS also did not
                   obtain or review the science center’s on-site monitoring reports and,
                   therefore, had reduced assurance that the science centers provided adequate
                   oversight of the projects and that the projects were meeting the goals outlined
                   in the workplan.

                   According to both the ISTC and the STCU MOAs with ARS, the science
                   centers are responsible for auditing and monitoring the research projects at
                   their sites and informing ARS of the audit schedule.

                   •   ISTC’s Project Management Manual states that on-site monitoring should
                       take place at least once during the project implementation. Annual visits
                       are recommended after receipt of each annual report. Final monitoring
                       visits are recommended after receipt of the draft final report.

                   •   STCU’s Standard Operating Procedures state that the first monitoring
                       visit should be performed approximately 6 months after the beginning of
                       a project. Intermediate monitoring visits are to be performed at
                       approximately 1 year intervals following the initial monitoring. A final
                       monitoring visit is to be performed approximately 1 month prior to the
                       project’s completion.

                   To assess the frequency with which the science centers conducted reviews of
                   the projects, we obtained their on-site monitoring reports. We found that
                   on-site monitoring was not performed annually by ISTC, as recommended,
                   for 7 of the 11 selected projects as shown in the following table.


USDA/OIG-AUDIT No. 02001-2-Hy                                                              Page 8
                          Project   Funding        Dates of On-site
                          Number      Date        Monitoring Reviews
                                    November
                           K-516      2000          November 2003
                                                    September 2001
                                    November        November 2003
                           K-525      2000             July 2005
                                                    November 2003
                           1720     April 2000      November 2004
                                      March            July 2002
                           1771       2001          November 2003
                           2089     July 2001            none
                           2332     April 2002         July 2004
                                    September
                           2538       2002           February 2005

                   The ISTC Senior Project Manager stated that annual on-site monitoring is a
                   recommendation and not a requirement. He explained that he accompanied
                   the ARS teams during their visits to the FSU facilities and that, as a result,
                   separate ISTC reviews were not needed every year. Instead, ISTC performed
                   what it referred to as “occasional monitoring.” The ISTC Project Manager
                   stated that he now has an assistant, which will enable him to conduct on-site
                   monitoring more often.

                   We found that there were significant periods in which no on-site monitoring
                   was performed by ISTC and site visits were not conducted by the ARS
                   collaborators. For example, project K-516 only received one on-site
                   monitoring review by ISTC and had received no ARS site visits since the
                   project began in November 2000. In addition, DCAA determined that
                   participants on this project had not maintained adequate time sheets or
                   scientific journals. Therefore, it was unable to verify the participants’ work
                   on the projects. Increased site visits and on-site monitoring may have
                   prevented these problems from occurring.

                   In August 2005, we met with the ARS FSU Program Manager to discuss the
                   inconsistency of on-site monitoring reviews conducted by the science center.
                   She agreed that a requirement is needed to ensure that the science centers
                   conduct regular on-site monitoring reviews. During the upcoming
                   coordinators’ meeting, she stated that she plans to discuss the lack of on-site
                   monitoring with the science center officials to identify how improvements
                   can be made.

                   ARS needs to develop and implement a plan to ensure that the research
                   projects are being monitored adequately.




USDA/OIG-AUDIT No. 02001-2-Hy                                                              Page 9
Recommendation 1
                   Develop and implement procedures to ensure that ARS collaborators conduct
                   site visits to the FSU institute on an annual basis. These procedures should
                   require that ARS management is notified when site visits are not performed
                   so that appropriate action may be taken.

                   Agency Response

                   ARS responded that it had established a policy, effective June 1, 2006,
                   regarding annual site visits. The policy continues to require annual visits by
                   the ARS collaborator to the to the FSU institutes. However, if an ARS
                   collaborator is unable to fulfill this requirement during any given year, the
                   following options are available:

                    1. Request that another ARS collaborator, who is traveling to the same
                       institute, meet the project team and discuss the project.

                    2. If the FSU collaborator is coming to the ARS collaborator's lab, or
                       he/she will jointly attend an international conference, the ARS
                       collaborator should send an email requesting that these meetings be used
                       in lieu of the site visit. The ARS collaborator may only request this
                       option only once during the life of the project.

                    3. As a last resort, the ARS collaborator can request a waiver of the annual
                       site visit requirement with a justification. The ARS collaborator may
                       only request a waiver once during the life of the project.

                   If none of the above options are followed by the ARS collaborator, then the
                   ARS-FSU unit will discuss with senior management possible courses of
                   action. These cases will be assessed individually and a determination will be
                   made based on the full circumstances of the project including research area,
                   institute, and other mitigating factors.

                   OIG Position

                   OIG accepts ARS’ management decision on this recommendation. It will
                   ensure that either a site visit occurs annually or an acceptable alternative
                   process is applied to provide assurance on the status of each project.

Recommendation 2
                   Implement a process for ensuring that periodic on-site monitoring is being
                   performed by the science centers. When the science centers do not perform
                   timely on-site monitoring reviews, provide notification to DOS.




USDA/OIG-AUDIT No. 02001-2-Hy                                                           Page 10
                                         Agency Response

                                         ARS’ response stated that its ARS-FSU unit will develop a plan to ensure
                                         that ISTC/STCU on-site monitoring occurs on a regular basis. The ARS-
                                         FSU unit will request the annual schedule of monitoring visits from each
                                         science center and review it to ensure projects are selected for monitoring on
                                         a regular basis. If the ARS-FSU unit does not receive a monitoring report
                                         within one month of the proposed monitoring visit, it will contact the science
                                         center for the report. If on-site monitoring does not occur as proposed, the
                                         ARS-FSU unit will provide notification to DOS and request that the DOS
                                         Science Center Coordinator follow-up with the science center to complete the
                                         monitoring visits. ARS’ timeline for completion was July 2006.

                                         OIG Position

                                         We accept ARS’ management decision on this recommendation.


Finding 2                                ARS’ Tracking of Technical Reports Needs to be Strengthened

                                         ARS program officials did not ensure that all required quarterly technical
                                         reports were submitted by the FSU collaborators for our 11 selected projects.
                                         ARS lacked documentation to ascertain whether 30 of the 141 reports had
                                         been received. Also, there was no evidence to confirm that the ARS
                                         collaborators reviewed the quarterly technical reports and provided adequate
                                         feedback for 71 of the reports on file. This occurred because ARS had an
                                         inadequate system for tracking the receipt of quarterly technical reports and
                                         had not established a formal review and commenting process. As a result,
                                         there is an increased risk that grant payments could be made to the FSU
                                         scientists prior to ARS verifying that all deliverables 11 have been met in
                                         accordance with the project agreement.

                                         According to each project agreement, quarterly progress reports are to be
                                         submitted within 1 month after the end of each reporting period and prior to
                                         the release of quarterly payments to the FSU collaborators. Quarterly reports
                                         should specify the project’s progress, major equipment purchases, personnel
                                         commitments, and any actual or proposed deviations and modifications to the
                                         workplan. The reports should contain sufficient information to enable an
                                         assessment to be made of the progress and cooperation within the project.

                                         ARS used an Excel spreadsheet to monitor the submission of the quarterly
                                         technical reports. However, we determined that the spreadsheet was not
                                         updated and checked for accuracy regularly and therefore, was unreliable.
                                         For example, we were unable to locate technical reports that the spreadsheet

11
     Deliverables are defined as any significant outputs related to the research project, including all research related tasks and quarterly and final reports.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                                          Page 11
                   indicated had been received and conversely, we were able to locate technical
                   reports that the spreadsheet indicated had not been received. Also, the
                   spreadsheet did not include the date on which the quarterly reports were due.

                   We determined that ARS program officials did not confirm the submission of
                   30 of the 141 quarterly technical reports for our 11 selected projects. Based
                   on ARS’ records, we could not determine whether the reports had been
                   submitted from the FSU collaborators. ARS program officials stated that the
                   reports may have been forwarded directly to the ARS collaborators without
                   their knowledge. Program officials did not always follow-up with the ARS
                   collaborators to ensure that the reports had been received.

                   The ARS guidelines state that the ARS collaborators should:

                   •   ensure that they receive all of the quarterly technical reports;

                   •   review the reports to see if the project is on track; and

                   •   provide feedback to OIRP and the FSU collaborators. If the ARS
                       collaborator has any concerns over the information presented in the
                       reports (or lack thereof), the ARS collaborator is to notify OIRP so they
                       can work with ISTC/STCU and FSU collaborators to make any necessary
                       corrections.

                   Although ARS had established a method for tracking the receipt of technical
                   reports, we determined that they had not implemented a system to ensure that
                   feedback was provided by the ARS collaborators. We found that 71 of the
                   quarterly reports were not supported by comments from the ARS
                   collaborators to indicate whether adequate progress was being made on our
                   11 selected projects. ARS officials stated that some comments were provided
                   verbally and were not documented. One ARS collaborator stated that if
                   OIRP does not receive any feedback from him, it probably just assumes that
                   he simply did not have any concerns.

                   For those quarterly reports on which the ARS collaborators provided
                   comments, we found that they did not adequately document their assessment
                   of the technical reports. For example, collaborators provided e-mailed
                   comments which were vague, such as “its fine” or “this is acceptable.”
                   Considering that the review of the quarterly technical reports is one of ARS’
                   primary controls for providing oversight, ARS should establish a formal
                   process for providing feedback.

                   One ARS collaborator stated that he had not received or reviewed any of the
                   quarterly technical reports since he was assigned to the project in
                   October 2004. Also, as part of an on-site monitoring review conducted by
                   ISTC in February 2005 for one project, ISTC discovered that communication
USDA/OIG-AUDIT No. 02001-2-Hy                                                             Page 12
                   between the ARS and FSU collaborators had not occurred since the project
                   began in September 2002. Thus, feedback on the quarterly technical reports
                   was not being provided to the FSU collaborators. ISTC found that some
                   research activities could not be fulfilled without the help of the ARS
                   collaborator.

                   ARS officials stated that in the past, the science centers would occasionally
                   call to ensure that ARS had received the technical reports prior to releasing
                   funds to FSU collaborators. However, this notification process ceased
                   because ARS officials found it caused delays in payments to the
                   collaborators. Although they have the authority under the project agreement
                   to suspend funding for a project if they do not receive quarterly reports, ARS
                   officials stated that they have never done so.

                   In August 2005, we met with the ARS FSU Program Manager to discuss the
                   inadequate oversight over the research projects. She stated that ARS had
                   already begun taking actions to ensure that technical reports are timely
                   received and review comments are provided by the ARS collaborators.

                   To verify that project goals are being met, ARS needs to strengthen its
                   tracking system to ensure the timely receipt and review of the quarterly
                   technical reports.

Recommendation 3
                   Improve the existing tracking system to ensure that all quarterly technical
                   reports have been submitted and the ARS collaborators have reviewed the
                   reports and provided adequate feedback.

                   Agency Response

                   ARS’ response stated that its ARS-FSU unit has replaced its tracking
                   spreadsheet for the quarterly technical reports with a database that includes
                   the date each report is received, the date the ARS-FSU unit’s comments are
                   received for each report, and a field for the due date of the next report. ARS
                   stated that if the report is more than 30 days overdue, its ARS-FSU unit will
                   contact the science center about the report to determine whether it has been
                   submitted. If the report has not been received at the science centers, the ARS-
                   FSU unit will contact the FSU project manager and ARS collaborator about
                   the status of the report. The response further states that this change was
                   implemented in May 2006. The ARS-FSU unit also developed and
                   implemented a new form for ARS collaborators to use for their feedback on
                   the technical reports that is to be placed along with the technical reports in
                   each project file (implemented June 1, 2006). The ARS-FSU unit stated that
                   it has received copies of all 30 quarterly technical reports listed as not on file
                   in the OIG report. In addition to requesting immediate feedback from the
                   ARS collaborators on the quarterly technical reports, the ARS-FSU unit
USDA/OIG-AUDIT No. 02001-2-Hy                                                               Page 13
                   stated that it developed a one-page template to more formally document input
                   from ARS collaborators for the quarterly report to DOS, including a section
                   on technical progress. The template was implemented in September 2005.

                   OIG Position

                   We accept ARS’ management decision on this recommendation.




USDA/OIG-AUDIT No. 02001-2-Hy                                                          Page 14
Section 2. Inadequate Accountability Over Program Funds



Finding 3                               ARS Needs to Establish Management Controls to Ensure
                                        Oversight of Program Funds

                                        ARS has not fully developed and implemented management controls for
                                        ensuring the accountability of program funds. We could not track the flow
                                        and the use of $72,231 transferred to the ARS collaborators in FY 2004. This
                                        occurred because the Area Office personnel were not required to track the
                                        program’s funds separately. Also, we found that expenditures totaling
                                        $39,438 were made by the science centers for personnel not listed in the
                                        projects’ workplans. This occurred because ARS relied on the science centers
                                        to provide oversight. ARS did not obtain financial documents or receive
                                        notifications of deviations from the workplans to verify whether expenditures
                                        were appropriate. As a result, ARS had reduced assurance that the program
                                        funds were being used appropriately. There was an increased risk that
                                        payments could be made to unapproved personnel not identified in the
                                        project’s workplan, personnel who are misclassified as former weapons
                                        scientists, and personnel who have presented inadequate evidence of having
                                        worked on the project.

                                        The Funds Transfer Agreement between USDA and DOS states that ARS is
                                        responsible for programmatic and financial accountability over program
                                        funds and must ensure that these funds are properly obligated and expended.

                                        Funds Transferred to the ARS Collaborators

                                        ARS collaborators receive a budget of up to $40,000 for the life of the project
                                        to fund travel to the FSU institutes 12 and for other research related costs such
                                        as supplies and equipment. A portion of the funds are allocated each year at
                                        the request of the ARS collaborators, based on planned project activities.

                                        To evaluate whether funds transferred to the ARS collaborators for our
                                        11 selected projects were properly accounted for, we obtained and reviewed
                                        FY 2004 documentation such as travel vouchers, status of funds reports, and
                                        transaction detail listings. Based on our review, we were unable to validate
                                        $72,231 of $98,548 of the funds transferred to the ARS collaborators in
                                        FY 2004. Documentation was available to support funds used for FSU
                                        travel. Also in some instances, the documentation had been annotated to
                                        indicate funds used to purchase miscellaneous supplies and materials for the
                                        FSU projects. However overall, the documentation did not itemize and
                                        support the ARS collaborators’ FSU related expenditures, and therefore we
12
     When ARS collaborator trips to the FSU institutes are cancelled or postponed, the funds that were to be used for travel are generally deobligated.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                                     Page 15
                                      could not verify how the FSU funds transferred to the ARS collaborators had
                                      been expended.

                                      We learned that beginning in FY 2004, FSU funds were included in the ARS
                                      collaborators’ current research information system account along with their
                                      other in-house research funds. According to Area Office personnel, they
                                      were not given direction on how they should track the FSU project funds. As
                                      a result of ARS’ commingling of the FSU funds, we were unable to verify
                                      that program funds were used for allowable expenditures. After recognizing
                                      the importance of providing separate accountability, one Area Office’s
                                      location administrative officer created sub-accounts to track expenditures for
                                      the FSU projects under her purview.

                                      Funds Transferred to the Science Centers 13

                                      Based on our review of the 11 selected projects, we identified 2 major areas
                                      where ARS’ management controls were inadequate to ensure that the FSU
                                      funds were used appropriately. These areas included: (1) modifying
                                      participants listed in the workplan and (2) obtaining and reviewing financial
                                      documents.

                                      •    Modifying Participants Listed in the Workplan

                                            ARS had not established notification procedures for staffing changes
                                            involving former weapons scientists. We learned that ARS and the
                                            science centers did not consider the addition or replacement of former
                                            weapons scientists events which warranted ARS notification. However,
                                            the main purpose of the FSU Scientific Cooperation Program is to
                                            engage former weapons scientists in peaceful agricultural research.
                                            Therefore, ARS needs to ensure that it receives notification of such
                                            staffing changes in order to effectively monitor the program’s progress
                                            toward achieving its stated purpose.

                                            According to the project agreement, the project should be carried out in
                                            accordance with the workplan. However, operational changes in the
                                            workplan, other than changes in the project manager, the participating
                                            institution, daily rates of leading persons of the project and the overall
                                            schedule, can be made by agreement between the science centers and the
                                            FSU institutes.

                                            We identified 11 former weapons scientists who were not listed in the
                                            projects’ workplans, and received payments totaling $39,438. These
                                            participants were additions or replacements to the projects and, therefore,

13
     ARS transfers an average of $300,000 per project to the science centers over a 3-year period to support project expenses, including salaries and
     equipment.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                            Page 16
                       were not included among the 158 former weapons scientists originally
                       identified in the projects’ workplans.

                       DCAA identified nine project participants who may be misclassified as
                       weapons scientists in three of our selected projects (K-516, K-525, and
                       1771). For three of the participants, the ISTC Project Manager even
                       stated that he had denied approval to the FSU institute’s project manager
                       to reclassify the participants (K-516). For this same project, we
                       identified five participants who were initially classified as technical
                       personnel and then were reclassified as former weapons scientists when
                       the project was extended. Furthermore, for this project, we found that
                       the science centers and ARS collaborators did not conduct site visits and
                       on-site monitoring on a regular basis. Increased oversight, in part, may
                       have precluded these problems from occurring.

                       DCAA identified participants who had not maintained adequate time
                       sheets or scientific journals (K-516 and K-525). Therefore, DCAA was
                       unable to verify the participants’ work on the project. Also, the on-site
                       monitoring review conducted by STCU for one project (P-119) revealed
                       that the project manager did not maintain a lab book and the
                       sub-manager’s lab book had not been completed in over a year. Without
                       adequate documentation to account for their time worked, there is
                       reduced assurance that former weapons scientists were actually spending
                       their time on project-related activities.

                       Because ARS is accountable for the funds transferred from DOS for the
                       FSU Scientific Cooperation Program, ARS should be notified of changes
                       in former weapons scientists to reduce the risk of funding manipulation
                       and ensure that personnel employed are indeed qualified former weapons
                       personnel.

                   •   Obtaining and Reviewing Financial Documents

                       We determined that ARS did not obtain detailed financial reports from
                       the science centers on a quarterly basis as required. According to Article
                       5 of the agreements between ARS and the science centers, the science
                       centers are required to submit quarterly financial reports that itemize by
                       project the salaries, equipment and supplies procured by the center, and
                       equipment and supplies procured by the project recipient. Also,
                       according to the project agreement: (1) quarterly cost statements should
                       be appended to the relevant technical report and submitted by the FSU
                       institute to ARS and the science center and (2) the project manager
                       should provide ARS and the science center with a quarterly list of grant
                       payments that are due to individual participants.



USDA/OIG-AUDIT No. 02001-2-Hy                                                           Page 17
                                            ARS relies on the science centers to provide accountability over the
                                            project funds. The ARS Program Manager stated that after the funds are
                                            transferred, the science centers are responsible for tracking and ensuring
                                            expenditures are allowable. She stated that she did not believe that it
                                            was necessary to obtain the detailed quarterly financial reports from the
                                            science centers and the cost statements from the FSU institutes because
                                            they have competent senior project managers at each center to monitor
                                            the submission and review of these financial records and to flag any
                                            unusual charges or obligations. However, for four of our selected
                                            projects, DCAA discovered that ISTC included over $14,000 of value
                                            added taxes as project costs, which are considered unallowable in
                                            accordance with the project agreement. This matter affects all ISTC
                                            projects. DOS is working with the Russian Government to resolve this
                                            issue. Until then, the value added taxes will continue to be paid.

                                            Also, ARS officials stated that they contracted with DCAA in
                                            FY 2004 to fulfill their financial accountability. However at the time of
                                            our audit, DCAA had only audited 7 of the 46 funded projects. 14
                                            Therefore, financial accountability had not been provided for the
                                            remaining 39 FSU projects. Furthermore, ARS did not adequately
                                            follow-up on the seven completed audits, in that, it did not verify that
                                            corrective and preventative actions had been implemented in response to
                                            the issues discussed in the DCAA audits. ARS should implement a plan
                                            to ensure that an independent review is conducted for each of the
                                            research projects in the FSU Scientific Cooperation Program and that all
                                            issues cited in the DCAA audits are resolved.

                                      In August 2005, we met with the ARS FSU Program Manager to discuss the
                                      inadequate oversight over the research funds. She stated that ARS plans to
                                      continue contracting with DCAA to conduct audits to evaluate the internal
                                      controls for accounting, timekeeping, and equipment for all of its projects.

                                      To ensure program funds are used appropriately, ARS needs to develop a
                                      plan for tracking FSU project expenditures, review financial records, and
                                      require notification of major changes to the workplan.

Recommendation 4
                                      Implement a process for tracking the FSU funds transferred to the ARS
                                      collaborators to ensure that expenditures are allowable in accordance with the
                                      program requirements.




14
     Four of the seven projects were selected for DCAA review, because they were extended beyond the originally anticipated completion date and had
     needed to request additional funding beyond that originally proposed.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                          Page 18
                   Agency Response

                   ARS agreed with the recommendation, stating that its ARS-FSU unit will
                   work with ARS’ Budget and Finance Staff, Area and Location Management
                   Units to determine a tracking system for funds transferred to ARS
                   collaborators. ARS’ expected timeline for completion is October 2006.

                   OIG Position

                   We accept ARS’ management decision on this recommendation.

Recommendation 5
                   Obtain and review pertinent financial records from the science centers such
                   as audits, quarterly financial reports, cost statements, and grant payment lists
                   to verify that costs reported are allowable in accordance with the project
                   agreement.

                   Agency Response

                   ARS accepted the recommendation, stating its ARS-FSU unit will request
                   from both science centers (ISTC and STCU) all pertinent financial records
                   such as audits and quarterly financial reports, cost statements, and grant
                   payments lists for each funded project. The ARS-FSU unit stated that it sent
                   notification to ISTC that all quarterly financial reports, cost statements, and
                   grant payment lists should be forwarded to the ARS-FSU unit for review
                   along with the quarterly technical report for each project on May 3, 2006.
                   ARS-FSU stated that it will make the same request to STCU for periodic
                   audit reports and quarterly financial reports, cost statements, and grant
                   payments lists for each funded project by June 30, 2006.

                   OIG Position

                   We accept ARS’ management decision on this recommendation.

Recommendation 6
                   Implement a process to ensure ARS is notified of significant modifications or
                   deviations to the workplan including changes in personnel classified as
                   former weapons scientists. This process should be sufficiently comprehensive
                   to provide ARS with reasonable assurance that adequate supporting
                   documentation was submitted (i.e., redirection letters) and that any changes
                   were approved by the appropriate science center officials.




USDA/OIG-AUDIT No. 02001-2-Hy                                                             Page 19
                   Agency Response.

                   ARS stated that in May 2006 its ARS-FSU unit formalized the notification
                   process to/from the science centers regarding all significant modifications to
                   the workplans, including redirection letters. ARS further stated that with
                   input from the ARS collaborators, its ARS-FSU unit will send decisions
                   regarding these requests to the science centers and documentation of the
                   ARS-FSU unit’s approval/disapproval of these requests will be filed in the
                   project folder in the same section as the project agreement.

                   OIG Position

                   We accept ARS’ management decision on this recommendation.

Recommendation 7
                   Implement an action plan to ensure that an independent review is conducted
                   for all of the research projects in the FSU Scientific Cooperation Program.

                   Agency Response

                   ARS responded that its ARS-FSU unit will develop an action plan to
                   schedule independent reviews by the DCAA of selected projects for the next
                   3 years. Furthermore, ARS stated that it will make a reasonable effort to
                   schedule an independent review, both financial and technical, of each project
                   during its lifetime or within 1 year of its completion date. ARS’ expected
                   timeline for completion is December 2006.

                   OIG Position

                   We accept ARS’ management decision on this recommendation.

Recommendation 8
                   Establish policies and procedures to follow-up on issues reported by DCAA.
                   Ensure that all recommendations are satisfactorily resolved and corrective
                   actions fully implemented.

                   Agency Response

                   ARS responded by stating its ARS-FSU unit formalized the following policy
                   and procedure regarding DCAA audits: Within 1 month of receipt of the
                   DCAA audit report, its ARS-FSU unit will followup on any critical findings
                   identified in the report by working with the DOS and the appropriate science
                   center. The appropriate science center will formally respond to the issues in
                   the audit report and take corrective action to address them. Its ARS-FSU unit
                   will document the resolutions to these findings with the science centers to

USDA/OIG-AUDIT No. 02001-2-Hy                                                           Page 20
                   ensure that corrective action is taken when needed.   ARS stated that this
                   policy was effective immediately.

                   OIG Position

                   We accept ARS’ management decision on this recommendation.




USDA/OIG-AUDIT No. 02001-2-Hy                                                        Page 21
Scope and Methodology
                                         Our audit focused on documentation, operations, and regulations applicable
                                         to ARS’ FSU Scientific Cooperation Program for FY 2000 to 2005. Field
                                         work was performed from April 2005 through September 2005.

                                         To evaluate ARS’ oversight of the program, we performed work at ARS’
                                         OIRP and selected ARS laboratories. We also interviewed officials within
                                         DOS and at the science centers, and reviewed and analyzed financial,
                                         performance, and technical documents relating to the program.

                                         ARS Offices and Divisions

                                         We interviewed ARS officials from OIRP to obtain an understanding of their
                                         oversight responsibilities, management controls over research activities and
                                         project expenditures, and their coordination with the science centers and
                                         DOS. We also interviewed ARS officials within the Budget Program and
                                         Management Staff, Financial Management Division, Extramural Agreements
                                         Division and National Program Staff to identify their role in the funds
                                         transfer process, the development of project agreements, and the development
                                         and approval of the research projects.

                                         We reviewed project files, project agreements, trip reports, quarterly and
                                         annual technical reports, funds transfer records, status of funds reports, and
                                         other related ARS and science center documentation.

                                         ARS Science Laboratories

                                         We judgmentally selected 11 of the 46 projects funded between
                                         April 1, 2000, and April 1, 2005, for review. These projects were
                                         judgmentally selected based on the highest funding, project status, the FSU
                                         country involved, and the area of research. This was done to ensure the
                                         sample included projects that were at various stages of the process such as
                                         recently started, extended, or completed; to ensure that all three FSU
                                         countries 15 were represented in the sample; and to ensure that the sample
                                         included projects in key program areas such as food safety and animal
                                         diseases. Of the 46 funded projects, 7 experienced a change of ARS
                                         collaborators. 16 Our sample included five of these seven projects. Although
                                         we did not intentionally seek projects in which the ARS collaborator had
                                         changed, five were selected as a result of our judgmental sample criteria.



15
     There are five participating countries, however, at the time of our audit, projects in Tajikistan and the Ukraine had not begun.
16
     The original ARS collaborator assigned to the project either retired, was reassigned, or left the agency.
USDA/OIG-AUDIT No. 02001-2-Hy                                                                                                           Page 22
                   Of the $37,990,000 ARS received from DOS, $18,176,547 was transferred to
                   the science centers to fund the 46 projects. Our 11 selected projects received
                   $6,235,456 of the $18,176,547 transferred. The balance of the funding,
                   approximately $19.8 million, was allocated for approved projects that were
                   still under development, salaries for ISTC and OIRP personnel, travel
                   expenses, the DCAA audits, supplies, interpreters, copyright fees, and other
                   program related costs. Ten of the selected projects are located in Russia and
                   Kazakhstan and, therefore, are monitored by ISTC. Only one of the selected
                   projects is located in Uzbekistan and monitored by STCU. The project
                   sample included mostly ISTC projects because 35 of the 46 funded projects
                   fell under the jurisdiction of ISTC. Also, the ISTC projects received
                   $14,833,078 of the total $18,176,547 transferred to the two science centers.

                   We visited the Animal Parasitic Diseases and Insect Bio-control Laboratories
                   in Beltsville, Maryland; the ARS Russell Research Center and the Southeast
                   Poultry Research Laboratory in Athens, Georgia; and the Plum Island Animal
                   Disease Center in Orient Point, New York. We interviewed scientists,
                   research leaders, and accounting personnel applicable to the selected projects
                   to obtain an understanding of their oversight responsibilities. Also, we
                   reviewed e-mail correspondence, transaction logs, and travel documentation.

                   Science Centers

                   To evaluate the science centers’ coordination, implementation, and oversight
                   responsibilities, we interviewed and exchanged e-mail correspondence with
                   the senior project managers and accounting personnel at ISTC/STCU. We
                   reviewed on-site monitoring reviews, financial records, and personnel
                   redirection letters.

                   DOS

                   We interviewed officials at DOS including the Acting Director of the
                   U.S. Bio-Chem Redirect Program and Acting Senior Nonproliferation of
                   WMD Expertise Program Coordinator to gain an understanding of DOS’
                   coordination, implementation, and oversight responsibilities relative to the
                   ARS FSU Scientific Cooperation Program.

                   Our audit was conducted in accordance with Generally Accepted
                   Government Auditing Standards.




USDA/OIG-AUDIT No. 02001-2-Hy                                                           Page 23
Exhibit A – Agency Response
                                Exhibit A – Page 1 of 5




USDA/OIG-AUDIT No. 02001-2-Hy                Page 24
                                 Exhibit A – Page 2 of 5




USDA/OIG-AUDIT No. 02001-02-Hy                Page 25
                                 Exhibit A – Page 3 of 5




USDA/OIG-AUDIT No. 02001-02-Hy                Page 26
                                 Exhibit A – Page 4 of 5




USDA/OIG-AUDIT No. 02001-02-Hy                Page 27
                                 Exhibit A – Page 5 of 5




USDA/OIG-AUDIT No. 02001-02-Hy                Page 28
